United States Department of Agriculture
Office of Inspector General




Overlap and Duplication in Food and
Nutrition Service's Nutrition Programs




                                          Audit Report 27001-0001-10
                                          June 2013
                                        Overlap and Duplication in Food and Nutrition
                                                Service’s Nutrition Programs

                                                    Audit Report 27001-0001-10

What Were OIG’s
Objectives

To assess FNS’ nutrition
programs to identify the
potential for overlap and
duplication.
                                 OIG assessed FNS’ nutrition programs to
What OIG Reviewed
                                 identify potential overlap and duplication.
We evaluated the potential for
duplication and overlap in the
five largest FNS nutrtion        What OIG Found
assistance programs,
accounting for 99 percent of     The Office of Inspector General (OIG) identified that the potential for
FNS’ total program budget.       overlap and duplication exists among the Food and Nutrition
We reviewed information          Service’s (FNS) 15 nutrition programs, and determined that FNS may
about these programs related     be duplicating its efforts by providing participants total benefits in
to FYs 2006 though 2012.         excess of 100 percent of daily nutritional needs when households
                                 and/or individuals participate in more than one FNS program
What OIG Recommends              simultaneously.
We recommended that FNS
                                 Over many years, Congress has directed FNS to establish a variety of
determine and document the
                                 separate nutrition assistance programs, with a variety of purposes,
requirements for conducting a
                                 objectives, and client bases. With the growing rate of food insecurity
study, to identify and
                                 among U.S. households and significant pressures on the Federal
determine the extent to which
                                 budget, it is important to understand how food assistance programs
overlap and duplication may
                                 complement one another as a safety net, and how services from these
exist in FNS’ nutritional
                                 15 individual programs may be inefficient, due to overlap and
assistance programs. We also
                                 duplication. FNS, working with Congress and through the budget
recommended that FNS
                                 process, has made attempts to obtain some efficiencies in its nutrition
determine whether they have
                                 assistance programs. However, FNS has not performed overarching
the resources necessary to
                                 assessments to evaluate how effectively and efficiently the programs
conduct the assessment of the
                                 operate together as the Nation’s nutritional safety net. OIG concluded
potential overlap of its
                                 that FNS could potentially achieve cost savings by taking actions to
nutrition programs or whether
                                 eliminate duplication and overlap in its nutrition assistance programs.
additional funding will be
                                 However, FNS contends that such an assessment would be costly.
necessary to complete the
                                 Since FNS could not quantify the cost, the agency should determine
assessment.
                                 the resources that would be required to conduct such a study. Then
                                 FNS should determine whether it has the resources to conduct the
                                 study or whether additional appropriated funding will be required.
                                 While FNS believes that the network of nutrition assistance programs
                                 that make up the national nutritional safety net reflects Congress’
                                 recognition of a diversity of needs, FNS generally agreed with our
                                 recommendations.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250



DATE:          June 13, 2013

AUDIT
NUMBER:        27001-0001-10

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Director
               Office of Internal Controls, Audits, and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Overlap and Duplication in Food and Nutrition Service’s Nutrition Programs


This report presents the results of the subject review. Your written response to the official draft
report is included at the end of the report. Excerpts from the response and the Office of
Inspector General’s position are incorporated into the relevant sections of the report. Based on
the information in your written response, we have accepted your management decision on both
recommendations.

In accordance with Departmental Regulation 1720-1, final action is to be taken within 1 year of
each management decision to prevent being listed in the Department’s annual Agency Financial
Report. For agencies other than the Office of the Chief Financial Officer (OCFO), please follow
your internal agency procedures in forwarding final action correspondence to OCFO.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................. 1
Section 1: Overlap and Duplication of FNS’ Nutrition Programs .................... 3
Finding 1: FNS May be Duplicating Efforts in Providing Nutritional
Assistance .............................................................................................................. 3
         Recommendation 1 ..................................................................................... 7
         Recommendation 2 ..................................................................................... 7
Scope and Methodology........................................................................................ 9
Abbreviations ...................................................................................................... 10
Exhibit A: FNS Nutrition Assistance Programs ............................................... 11
Agency's Response .............................................................................................. 15
Background and Objectives 
Background
FNS’ mission is to provide children and needy families with better access to food and a more
healthful diet through its food assistance programs and comprehensive educational efforts. FNS’
mission is also to increase food security and reduce hunger in partnership with cooperating
organizations by providing children and low-income people access to food, a healthful diet, and
nutrition education in a manner that supports American agriculture and inspires public
confidence. The Department of Agriculture’s (USDA) Center for Nutrition Policy and
Promotion (CNPP) provides significant technical guidance to FNS. The center oversees
improvements in and revisions to Departmental nutrition guidance, while ensuring the
consistency of all guidance with the Dietary Guidelines for Americans (DGA). DGA includes
principles and recommendations, such as calorie balance, to promote health and prevent disease.
Together with the Department of Health and Human Services, USDA established DGA to be the
cornerstone of Federal nutrition policy.

Currently, FNS is responsible for administering 15 independent nutrition assistance programs,
with a combined fiscal year (FY) 2012 budget of $114 billion. See exhibit A for a list and
description of these programs. The FY 2012 budget for the Supplemental Nutrition Assistance
Program (SNAP), the agency’s cornerstone program formerly known as the Food Stamp
Program, comprises the largest portion of FNS’ overall budget at $88.6 billion. 1 Programs such
as the Women, Infants, and Children (WIC) program, which had a budget of $6.6 billion, and
child nutrition programs such as the National School Lunch Program (NSLP), School Breakfast
Program (SBP), Summer Food Service, and the Child and Adult Care Food Program (CACFP),
which together totaled over $18 billion, also constitute significant portions of FNS’ overall
budget for FY 2012.

GAO issued a report in April 2010 that focused on FNS’ 15 nutrition programs. 2 The report
noted that there were positive health and nutrition outcomes for the four major FNS food
nutrition programs—SNAP, WIC, NSLP, and SBP. The report noted that little is known about
the goal outcomes of the smaller FNS food nutrition programs, and that opportunities may exist
to eliminate duplication and/or overlap in some of these programs’ client bases and
administrative functions. GAO recommended that USDA identify and develop methods for
addressing potential inefficiencies and reducing unnecessary overlap among smaller programs,
while ensuring access to the programs for those who are eligible. USDA agreed to consider the
value of examining potential inefficiencies and overlap among the smaller programs. However,
USDA also expressed concern that, in the absence of a specific appropriation for a review, any
allocation of resources to this effort would shift resources away from other projects and
priorities.


1
  This figure includes the $8.2 billion in FY 2012 SNAP funding provided by the American Recovery and
Reinvestment Act.
2
  GAO report 10-346, Domestic Food Assistance, Complex System Benefits Millions, but Additional Efforts Could
Address Potential Inefficiency and Overlap among Smaller Programs, April 2010.

                                                                      AUDIT REPORT 27001-0001-10                1
Objectives
To assess FNS’ nutrition programs to identify the potential for overlap and duplication.




2    AUDIT REPORT 27001-001-10
Section 1:  Overlap and Duplication of FNS’ Nutrition Programs 
Finding 1: FNS May be Duplicating Efforts in Providing Nutritional
Assistance
FNS may be duplicating its efforts by providing total benefits that exceed 100 percent of daily
nutritional needs to program participants when households and/or individuals participate in more
than one of FNS’ nutrition programs simultaneously. For instance, FNS programs such as
SNAP, NSLP, and SBP are structured to provide up to 100 percent, 33 percent, and 25 percent of
the recommended daily nutrition, respectively.3 Separate legislative authorizations have
established the current 15 separate food and nutrition programs that constitute what is commonly
referred to as the national nutrition “safety net.” While FNS considers each of the programs to
complement each other, it is unclear whether the complementary nature of these programs
duplicates FNS’ efforts because FNS has not fully assessed its food safety net as a whole to
determine the impact of providing potentially overlapping nutritional benefits through multiple
programs. If FNS’ cumulative program efforts are providing overlapping nutritional assistance,
FNS’ expenditure of program funds may exceed the amount needed to fulfill the nutritional
needs of participants.

Recently, the President cited an immediate need to eliminate wasteful spending and improve the
Government’s overall effectiveness by identifying and eliminating areas of overlap in
Government operations. On March 11, 2011, the President signed a memorandum to the heads
of executive departments and agencies that initiated this effort.4 Specifically, the President
directed that a review be done of all departments and agencies having functions that support one
of our most important priorities, increasing trade, exports, and our overall competitiveness by
consolidating duplicate and overlapping functions. Over many years, the Federal Government
has addressed the issue of good nutrition for individuals in need by enacting several significant
Acts, such as the Richard B. Russell National School Lunch Program Act of 1946,5 the Child
Nutrition Act of 1966, and the Food Stamp Act of 1977. The programs within USDA have
various goals related to food security and improved nutrition. However, the programs
constituting the Nation’s nutrition safety net, authorized separately following separate legislative
actions, have generally operated independently of one another. Establishing separate programs
intended to focus on specific nutritional needs has created a potential for overlap and duplication
among individual FNS programs. Although these individual programs together comprise the
Nation’s nutritional safety net, the efficiency of this structure and its composite effect are not
well known.




3
  The Thrifty Food Plan’s market basket provides 100 percent of the Recommended Dietary Guidelines. School
lunches must provide one-third of the Recommended Dietary Allowances (RDA) for protein, calcium, iron, and
vitamins A and C, on average over the course of a week; school breakfasts must satisfy one fourth of the RDAs for
the same nutrients. 7 CFR Parts 210 and 220 FNS–2007–0038 RIN 0584–AD59 Nutrition Standards in the National
School Lunch and School Breakfast Programs.
4
  Presidential Memorandum--Government Reform for Competitiveness and Innovation, March 11, 2011.
5
  As amended through Public Law (P.L.) 108-265, June 30, 2004.

                                                                       AUDIT REPORT 27001-0001-10              3
FNS’ primary nutrition program is SNAP.6 Other FNS programs provide additional benefits
targeted to special populations, dietary needs, and delivery settings. FNS estimates that a total of
101 million people currently participate in at least one of its programs, including over 47 million
in SNAP, a historically high figure that has risen with the economic downturn and expanded
eligibility and funding of food assistance programs. Accordingly, FNS’ FY 2012 budget for
SNAP was approximately $88.6 billion. In total, FNS’ FY 2012 budget for its 15 other programs
was approximately $25.4 billion.

FNS officials stated that the agency’s program statutes and regulations are designed so that
eligible people can generally participate in more than one program simultaneously. For example,
children that are SNAP clients are also eligible to enroll in the School Breakfast and Lunch
Programs. These children may reside in a household where the mother is also eligible to
participate in WIC. In addition, an elderly grandparent in the household may be eligible to
participate in the Senior Farmers’ Market Program. In contrast, officials also stated that in
situations where simultaneous participation in two programs would clearly be overlapping,
regulations limit clients’ participation to one of the two programs. For example, FNS prohibits
participation in both SNAP and the Food Distribution Program on Indian Reservations.
However, households/individuals can generally combine participation across the majority of the
15 nutrition programs.

FNS commissioned a study that detailed the extent of multiple participation in four major FNS
programs—SNAP, WIC, SBP, and NSLP—for a 4-month period in 2006. The study reported
that among the families that participated in at least one of the four major programs, about
41 percent participated in only one, and 59 participated in two or more programs.7

Since 2006, enrollment and budget figures for FNS’ programs have changed significantly.
Without current data on multiple program participation and costs, the extent of the potential
overlap and duplication currently in FNS programs is unknown. To determine the magnitude of
the potential overlap among FNS’ safety net of programs and potential savings that could be
achieved by reducing any duplication that may occur, additional, updated information about the
receipt of multiple benefits and associated costs is needed.

Outlined below is the information currently available about the nutritional benefits FNS provides
through various programs toward a participant’s recommended daily nutrition or DGA, and the
costs associated with the programs:

        SNAP: Calculates benefits based upon the Thrifty Food Plan, a model defining the
        average daily nutritional requirements of a healthful diet for groups of individuals within
        households distinguished by age and gender. When followed, the Thrifty Food Plan



6
  The Food and Nutrition Act of 2008 authorized SNAP. It enables participants to improve their diets by increasing
the food purchasing power of households by providing them benefits (formerly known as food stamps) that are
redeemed at authorized retail grocery stores.
7
  FNS commissioned Mathematica Policy Research to conduct a study, Multiple Benefit Receipt Among Individuals
Receiving Food Assistance and Other Government Assistance, which was published July 26, 2010. The study
determined that from January to April 2006, an average of 40.6 million people received assistance.

4     AUDIT REPORT 27001-001-10
        provides 100 percent of a healthy, nutritious diet according to DGA. FNS’ FY 2012
        budget to deliver SNAP benefits was $88.6 billion.

        SBP and NSLP: Effective July 1, 2012, the school breakfasts and lunches provided
        through SBP and NSLP had to be in compliance with DGA and provide 25 and
        33 percent, respectively, of DGA requirements on average each week. In FY 2012, FNS
        estimates that 32 million school lunches and over 12 million school breakfasts were
        served per day at an estimated cost of $18 billion.

        WIC: This program promotes greater health by offering fruits and vegetables, as well as
        foods that have more fiber and less saturated fat and cholesterol, to qualified women and
        children. FNS does not specifically evaluate these food items in terms of their
        contributions toward DGA. WIC delivers benefits in the form of vouchers that
        participants can redeem for specific, nutritious food items at authorized retailers. In
        FY 2012, FNS spent approximately $6.6 billion for WIC benefits.

        CACFP: Serves nutritious meals and snacks to children and adults who attend eligible
        day care programs. Program officials work with USDA’s CNPP and the Institute of
        Medicine8 to establish dietary guidelines to meet DGA for each age group participating in
        the program. FNS estimated the FY 2012 appropriation for providing CACFP food
        benefits was $2.8 billion.

        FNS’ Other Nutrition Programs: Congress has established 10 other, much smaller
        programs to meet specific needs. See exhibit A. Little is currently known about multiple
        participation among and between the 10 smaller programs and the 5 larger programs.

However, OIG found indications that FNS does not always take steps to minimize the potential
that cumulative benefits could exceed participants’ needs. When establishing benefit levels
among programs, considering benefits provided by other programs and ensuring that cumulative
benefit provisions do not exceed participants’ total needs could result in cost savings. Overall,
FNS’ nutrition program costs for FY 2012 are estimated at $114 billion.

Over the past several years, FNS has made attempts to streamline some nutrition programs. In
response to a Congressional request, in July 2012, USDA provided proposals to address
inefficiencies among nutrition assistance programs, particularly the smaller programs, while
ensuring access for those who are eligible. Three proposals and FNS’ conclusions were
presented.
    · Transitioning elderly participants in the Commodity Supplemental Food Program
        (CSFP)9 to SNAP. FNS concluded that there were negative consequences to

8
  The Institute of Medicine is an independent, nonprofit organization that works outside of government to provide
unbiased and authoritative advice to decision makers and the public. It is the health arm of the National Academy of
Sciences.
9
  CSFP is a Federally funded program that works to improve the health of low-income pregnant and breastfeeding
women, other new mothers up to one year postpartum, infants, children up to age six, and elderly people at least
60 years of age by supplementing their diets with nutritious USDA foods. It provides food and administrative funds
to States to supplement the diets of these groups.

                                                                         AUDIT REPORT 27001-0001-10               5
         transitioning additional CSFP participants to SNAP. Approximately $2 million in
         outreach grants to State CSFP agencies would be needed to conduct more aggressive
         outreach about SNAP, as well as training on the strategies to make this transition work.
         Even with these efforts, FNS concluded that it is unlikely that all CSFP participants
         would transition to SNAP, estimating that about one-third of the CSFP caseload would
         participate in SNAP, while continuing to participate in CSFP. Simultaneous participation
         in CSFP and SNAP would cost an estimated $463 million in additional SNAP benefits
         over 5 years.

    ·    Combining the administrative functions of CSFP and the Emergency Food Assistance
         Program (TEFAP). FNS concluded that there is no research to support that combining
         administrative functions of CSFP and TEFAP would lead to reduced administrative costs
         or greater efficiency, and was unlikely to produce significant savings.

    ·    Options for greater savings within the State administrative expenses. FNS proposed no
         new initiatives to realize savings, concluding that it consistently works with its State
         agency partners to drive greater efficiency in program administration through policy
         options, waivers, demonstration projects, business process reengineering, and information
         technology modernization.

Over the years, working with Congress and through the budget process, FNS has also made some
attempts at seeking efficiencies in the delivery of its nutrition assistance programs. These
attempts have generally focused on individual programs or on the relationships between two of
its programs, rather than on the complete set of programs constituting the Nation’s nutritional
safety net as a whole. In FYs 2007, 2008, and 2009, USDA proposed the elimination of CSFP,
since the program was only available in limited areas, and overlapped with two of the largest
Nationwide Federal nutrition assistance programs—SNAP and WIC. Congress did not adopt the
proposal.

For FY 2012, FNS officials reported that they proposed eliminating CSFP at the most severe
funding reduction level, and in FY 2013, proposed eliminating the Farmers Market Nutrition
Program. However, the Department did not incorporate these proposals into its budget requests
for those years.

FNS stated that nutrition assistance is an area where the multiplicity of programs reflects a
diversity of needs. However, OIG is concerned that allowing participation across multiple
programs may not be the most effective and efficient means of serving the diverse needs of FNS
participants. Particularly in an environment of reduced financial resources, the values that any
participation in complementary programs may provide toward FNS’ objectives must be
evaluated in relation to its costs. OIG notes that both the composite effect and the cost of
providing benefits through this structure under current conditions are unknown.

FNS has not conducted a study to assess the composite impact of providing overlapping benefits,
including, for instance, whether providing cumulative benefits that can exceed an individual’s
recommended DGA may interfere with intended program outcomes. It is not known, for
example, if savings or health benefits could be achieved by adjusting the combined nutritional

6       AUDIT REPORT 27001-001-10
benefits of various programs in relation to individuals’ participation, or whether adjusting
combined benefits in relation to DGAs may improve nutritional outcomes for participants. FNS
stated that an effort to identify and assess potential duplication would be difficult. For example,
SNAP, the most significant nutrition assistance program, is not designed to track actual food
purchases. Therefore, one would not be able to determine the nutritional content a SNAP
participant actually receives. To determine this, FNS would have to design some type of
representative sample of SNAP participants to confirm what they purchase, which would be a
very detailed effort. Then FNS would have to account for benefits from other programs, like
NSLP and SBP. FNS stated this effort would be difficult because it does not have the staff to do
this. The agency’s focus is on managing nutrition assistance programs. To complete this effort
would require additional funding from Congress. We have concluded that FNS should determine
the resources that would be required to conduct a study to identify the overlap and duplication
that may exist in its nutritional assistance programs. Then FNS should determine whether it has
the resources to conduct such a study or whether additional funding will be required.

Recommendation 1

Determine and document the requirements for conducting a study, including milestones and
estimated costs, to identify and determine the extent to which overlap and duplication may exist
in FNS’ nutritional assistance programs.

Agency Response
As noted in this report, FNS believes that the network of nutrition assistance programs that
makes up the national nutritional safety net reflects Congress’ recognition of a diversity of needs,
and does not present evidence of overlap and duplication. The OIG’s report does not offer any
substantive evidence to refute this view. While the recommended feasibility study might provide
additional information on potential duplication and overlap, it would also divert limited
resources away from other pressing issues of greater policy relevance.

Nonetheless, as we develop a research and evaluation agenda for fiscal year 2014, FNS will
include a project to determine and document the requirements—including milestones and
estimated costs—for a study that may identify and determine the extent to which overlap and
duplication may exist. We will complete this action by September 30, 2013.

OIG Position
We accept FNS’ management decision.

Recommendation 2

Determine whether FNS has the resources necessary to conduct the assessment of the potential
overlap of its nutrition programs or whether additional funding will be necessary to complete the
assessment.



                                                               AUDIT REPORT 27001-0001-10          7
Agency Response
Action on this recommendation is contingent on completion of the feasibility and design study
determination included in Recommendation 1. FNS will make an assessment of the availability
of necessary resources to conduct an assessment of potential overlap within three months of
completion of the feasibility and design study.

OIG Position
We accept FNS’ management decision.




8    AUDIT REPORT 27001-001-10
Scope and Methodology 
In order to evaluate the potential for duplication and overlap in FNS’ 15 nutrition programs, we
selected the five largest: SNAP, NSLP, SBP, WIC, and CACFP. We reviewed information
about these programs from FY 2006 though FY 2012. These five programs accounted for about
99 percent of FNS’ total nutrition program budget. For the 10 remaining, much smaller
programs, we incorporated information about their performance from an April 2010 GAO report.

In developing the issue in this report, we performed the following steps and procedures:

   ·   Reviewed applicable FNS studies and GAO reports regarding participation in FNS
       nutrition assistance programs, and incorporated information from these sources into this
       audit as we deemed appropriate. We did not perform additional tests to verify the
       information in these reports.

   ·   Reviewed applicable laws, regulations, policies, procedures, and instructions to become
       familiar with SNAP, NSLP, SBP, WIC, and CACFP.

   ·   Interviewed FNS’ national program officials regarding the objectives, intent, client bases
       served, and agency position on potential duplication and overlap in the five major
       programs. We also discussed various studies and other publications with these program
       officials and officials from FNS’ Office of Research and Analysis.

We conducted our fieldwork from January through November 2012. During the course of our
audit we did not rely on any computer based data, and make no representation regarding the
adequacy of any agency computer systems or the information generated from them.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                             AUDIT REPORT 27001-0001-10           9
Abbreviations 
CACFP      Child and Adult Care Food Program
CNPP       Center for Nutrition Policy and Promotion
CSFP       Commodity Supplemental Food Program
DGA        Dietary Guidelines for Americans
FDPIR      Food Distribution Program on Indian Reservations
FNS        Food and Nutrition Service
FY         Fiscal Year
GAO        Government Accountability Office
NSLP       National School Lunch Program
OIG        Office of Inspector General
PL         Public Law
RDA        Recommended Dietary Allowances
SBP        School Breakfast Program
SFSP       Summer Food Service Program
SNAP       Supplemental Nutrition Assistance Program
TEFAP      The Emergency Food Assistance Program
USDA       United States Department of Agriculture
WIC        Women, Infants, and Children




10   AUDIT REPORT 27001-001-10
Exhibit A: FNS Nutrition Assistance Programs  

FNS is responsible for administering 15 independent nutrition assistance programs, with a
combined FY 2012 budget of $114 billion. This table provides a list and description of these
programs by target population, benefit type, and numbers of participants.

USDA             Target population              Benefit type                   Participation
Program                                                                        (approx.)
SNAP             Individuals and                Electronic benefits            Monthly average of
                 households, specifically       provided to households         46.7 million people
                 low-income households          for food purchases in          or 22.5 million
                 with gross income at or        participating retail stores.   households.
                 below 130 percent of
                 federal poverty level or net
                 income at or below
                 100 percent of the poverty
                 level and with limited
                 resources.
National         Children, specifically         Cash reimbursements and Daily average of
School Lunch     school children of high        food donations provided     32 million students.
Program          school grades and younger.     to schools for meals and
                 Students from families         snacks served if the
                 with incomes below             schools agree to serve
                 130 percent of the federal     free and reduced price
                 poverty level (or from         meals to eligible children.
                 families receiving TANF        All meals are reimbursed;
                 or SNAP) qualify for free      the meal reimbursement
                 meals, and students from       rate varies by the income
                 families with incomes          status of the participating
                 below 185 percent of the       child.
                 federal poverty level
                 qualify for reduced price
                 meals.
School           Children, specifically         Reimbursements to local        Daily average of
Breakfast        eligible children in schools   providers (schools and         10.6 million
Program          and residential child care     residential child care         students.
                 institutions, with children    institutions) for
                 whose families meet            breakfasts served.
                 income eligibility
                 guidelines qualifying for
                 free or reduced price
                 breakfasts.


                                                             AUDIT REPORT 27001-0001-10           11
WIC               Children and special            Check, voucher, or            Monthly average of
                  groups, including low-          electronic benefit transfer   8.9 million women,
                  income pregnant,                benefits provided to          infants, and children.
                  breastfeeding, and              recipients to pay for
                  postpartum women,               supplemental foods, and
                  infants, and children to age    to provide nutrition
                  five determined to be at        education and health care
                  nutritional risk.               referrals for participants.
                                                  Some State agencies
                                                  distribute WIC foods
                                                  directly to recipients
                                                  through warehouses or
                                                  home delivery.
Fresh Fruit and   Children, specifically          Reimbursements to local       7,100 schools
Vegetable         elementary school children      providers (elementary         participated during
Program           in designated schools with      schools) for fresh fruit      2011-2012 school
                  a high percentage of            and vegetable snacks          year.
                  students eligible for free or   served free to students
                  reduced priced meals.           outside of breakfast or
                                                  lunch periods.
Child and         Nutritious meals and            FNS enters into               Each day,
Adult Care        snacks to eligible children     agreements with State         3.3 million children
Food Program      and adults who are enrolled     agencies, which in turn       receive nutritious
                  for care at participating       enter into agreements         meals and snacks
                  child care centers, day care    with independent centers      through CACFP.
                  homes, and adult day care       and sponsors. Meals           CACFP provides
                  centers, as well as to          served are reimbursed         meals and snacks to
                  children and youth who          based on prescribed rates.    120,000 adults who
                  participate in afterschool                                    receive care in
                  care programs or reside in                                    nonresidential adult
                  emergency shelters.                                           day care centers.
Senior            Elderly people, specifically    Benefits that can be used 864,000 low-income
Farmers’          low-income seniors.             to purchase fresh fruits, seniors.
Market                                            vegetables, and herbs at
Nutrition                                         authorized farmers’
Program                                           markets, roadside stands,
                                                  and community supported
                                                  agriculture programs.




12     AUDIT REPORT 27001-001-10
Commodity       CSFP works to improve          CSFP provides food and        For FY 2012,
Supplemental    the health of low-income       administrative funds to       Congress
Food Program    pregnant and breastfeeding     States to supplement the      appropriated
                women, other new mothers       diets of these groups.        $176.8 million for
                up to one year postpartum,                                   CSFP. Annual
                infants, children up to age                                  appropriations may
                six, and elderly people at                                   be supplemented by
                least 60 years of age by                                     unspent funds
                supplementing their diets                                    carried over from the
                with nutritious USDA                                         previous FY, if
                foods.                                                       available.
Special Milk    Children, specifically         Formula grant that            4,628 schools,
Program         schoolchildren of high         reimburses the cost of        nonresidential child
                school grade or younger;       milk.                         care institutions, and
                childcare institutions; and                                  summer camps
                similar nonprofit                                            participated in
                institutions that do not                                     serving over
                participate in other federal                                 55.3 million half
                meal service programs,                                       pints.
                including NSLP/SBP.
Summer Food     Children, specifically         Reimbursements to local       Daily average of
Service         children from needy areas,     providers (schools,           2.3 million children
Program         during summer break or         government agencies, and      served during the
(SFSP)          when schools are closed        nonprofit organizations)      month of July 2011.
                for vacation.                  for meals and snacks
                                               served in programs
                                               during breaks in school
                                               year.
Disaster Food   Provides food when people      FNS coordinates with          Provided as needed
Assistance      are in sudden or critical      State, local and voluntary    during emergency or
                need following a storm,        organizations to provide      disaster situations
                earthquake, flood or other     food for shelters and
                disaster emergency.            other mass feeding sites,
                                               distribute food packages
                                               directly to households in
                                               need in limited situations,
                                               and issue emergency
                                               SNAP benefits.




                                                           AUDIT REPORT 27001-0001-10           13
Commodity      The USDA's Schools/Child       Participating schools or     In school year 2012,
Programs –     Nutrition Commodity            entities receive USDA        NSLP entitlement
(Schools -     Programs support               entitlement commodities      and USDA food
Child          American agricultural          at set values per meal       benefits delivered
Nutrition)     producers by providing         served, and can also         totaled $1.1 billion.
               cash reimbursements for        receive bonus
               meals served in schools,       commodities, as available
               but also by providing          through USDA’s price
               nutritious, USDA-              support and surplus
               purchased food to NSLP,        removal programs.
               CACFP, and SFSP.
The            Low-income households          USDA foods distributed       USDA foods valued
Emergency      and individuals.               through State agencies to    at approximately
Food                                          food banks and other         $483 million
Assistance                                    agencies, which provide      (FY 2011 total)
Program                                       food to local                delivered to States
                                              organizations, such as       and territories for
                                              soup kitchens and food       distribution to local
                                              pantries, or directly        organizations.
                                              provide the foods to
                                              needy households.
Food           Provides commodity foods       USDA purchases and           Currently, there are
Distribution   to low-income households,      ships FDPIR foods to the     approximately
Program on     including the elderly,         Indian Tribal                276 tribes receiving
Indian         living on Indian               Organizations and State      benefits under the
Reservations   reservations, and to Native    agencies, which store and    FDPIR through
               American families residing     distribute the food,         100 Indian Tribal
               in designated areas near       determine applicant          Organizations and
               reservations and in the        eligibility, and provide     5 State agencies.
               State of Oklahoma.             nutrition education to
                                              recipients.
WIC Farmers’   Children and special           Coupons provided for         1.9 million women,
Market         groups, specifically WIC       purchase of fresh fruits     infants, and children.
Nutrition      participants and those on a    and vegetables at
Program        waiting list to receive WIC    certified farmers markets.
               benefits (lower-income
               pregnant, breastfeeding,
               and postpartum women,
               infants, and children to age
               five, who are at nutritional
               risk).




14    AUDIT REPORT 27001-001-10
Agency's Response 




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27001-0001-10   15
United States
Department of    DATE:          May 16, 2013
Agriculture
                 AUDIT
Food and
Nutrition        NUMBER:        27001-0001-10
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712                        Office of Inspector General
Alexandria, VA
22302-1500       FROM:          Audrey Rowe /S/
                                Administrator
                                Food and Nutrition Service

                 SUBJECT:      Overlap and Duplication in Food and Nutrition Service’s Nutrition
                               Programs

                 This letter responds to the official draft report for audit report number 27001-0001-10,
                 Overlap and Duplication in Food and Nutrition Service’s Nutrition Programs.
                 Specifically, the Food and Nutrition Service (FNS) is responding to the two
                 recommendations in the report.

                 OIG Recommendation 1:

                 Determine and document the requirements for conducting a study, including milestones
                 and estimated costs, to identify and determine the extent to which overlap and
                 duplication may exist in FNS’ nutritional assistance programs.

                 Food and Nutrition Service Response:

                 As noted in this report, FNS believes that the network of nutrition assistance programs
                 that make up the national nutritional safety net reflects Congress’ recognition of a
                 diversity of needs, and does not present evidence of overlap and duplication. The
                 OIG’s report does not offer any substantive evidence to refute this view. While the
                 recommended feasibility study might provide additional information on potential
                 duplication and overlap, it would also divert limited resources away from other
                 pressing issues of greater policy relevance.

                 Nonetheless, as we develop a research and evaluation agenda for fiscal year 2014, FNS
                 will include a project to determine and document the requirements – including
                 milestones and estimated costs – for a study that may identify and determine the extent
                 to which overlap and duplication may exist. We will complete this action by
                 September 30, 2013.
                                                                                 Page |2




OIG Recommendation 2:

Determine whether FNS has the resources necessary to conduct the assessment of the
potential overlap of its nutrition programs or whether additional appropriated funding
will be necessary to complete the assessment.

Food and Nutrition Service Response:

Action on this recommendation is contingent on completion of the feasibility and design
study determination included in Recommendation 1. FNS will make an assessment of the
availability of necessary resources to conduct an assessment of potential overlap within
three months of completion of the feasibility and design study.




                             AN EQUAL OPPORTUNITY EMPLOYER
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
